IN THE SUPREME COURT OF THE UNITED STATES

JEROME BERRY,

)
)
)
)
)
)
)

vs.
TERI LAWSON,
Respondent.

On Petition for Writ of
Certiorari to the Missouri
Supreme Court

PROOF OF SERVICE
I hereby certify that on January 29, 2021, in compliance with Supreme
Court Rule 29.3, I served a copy of the following documents upon counsel for the
respondent: Petition for Writ of Certiorari to the Missouri Supreme Court; Motion
to Proceed In Forma Pauperis and Proof of Service.
Such service was obtained by mailing documents via first class mail with
postage fully prepaid and properly affixed thereto at Clayton, Missouri, addressed
to:
Eric Schmitt
Attorney General
Office of the Missouri Attorney General
PO Box 899
Jefferson City, MO 65102

-1-

